Pension Benefit Guaranty Corporation
      Office of Inspector General

           Audit Report



    Review of Sensitive Payments
          Fiscal Year 1999




            August 21, 2000
                                    2000-14/23143
                                    Review of Sensitive Payments
                                          Fiscal Year 1999
                                    Audit Report 2000-14/23143

                                                  CONTENTS

                                                                                                                       Page

EXECUTIVE SUMMARY .....................................................................................                  i

INTRODUCTION ................................................................................................            1

OBJECTIVES.....................................................................................................          1

SCOPE ..............................................................................................................     1

BACKGROUND AND METHODOLOGY................................................................                               2

FINDING AND RECOMMENDATIONS .................................................................                            3




AGENCY COMMENTS ........................................................................................               Tab A



                                             ABBREVIATIONS

CFR                            Code of Federal Regulations
FY                             Fiscal Year
GAO                            General Accounting Office
Guide                          Guide for Evaluating and Testing Controls Over Sensitive
                                Payments
M&IE                           Meals and Incidental Expenses
PBGC                           Pension Benefit Guaranty Corporation
                            Review of Sensitive Payments
                                  Fiscal Year 1999
                            Audit Report 2000-14/23143

                                EXECUTIVE SUMMARY

        The Pension Benefit Guaranty Corporation's (PBGC) senior level officials are
vested with the public trust and hold positions with decision-making authority. In
those positions, the employees may face intense scrutiny of their actions. Sensitive
payments encompass a wide range of executive functions including compensation,
travel, official entertainment funds, unvouchered expenditures, consulting services,
speaking honoraria and gifts, and perquisites.

FINDING AND RECOMMENDATIONS

1. PBGC Directive GA 10-5 Conflicts With Federal Travel Regulations.

        Our audit found that the guidance in PBGC Directive GA 10-5 for authorizing
and reimbursing travelers for travel expenses was outdated. It appears that instead of
following GA 10-5, the corporation used the guidance in 41 CFR Chapter 301, Federal
Travel Regulations, Temporary Duty Travel Allowances which was amended in 1998.

        This lack of consistency between PBGC Directive GA 10-5, the Federal Travel
Regulations, and PBGC's actual practices weakens management's control over the
authorization and reimbursement of travel expenses of both PBGC employees and
contractors. This could lead to reimbursement of travel expenses that exceeded or fell
short of allowable amounts.

                                 RECOMMENDATIONS

       We recommend that PBGC implement the following corrective actions:

       PBGC Directive GA 10-5 should be timely revised to reflect amendments to the Federal
       Travel Regulations and changes in management's current policies for authorization
       and reimbursement for travel by PBGC's employees and consultants. (FOD-282)

       Discontinue use of GSA Form 87 to document authorization of travel. Use
       a travel authorization form, such as the form available on Travel Manager,
       which provides a more detailed schedule of estimated costs. (FOD-283)


AGENCY COMMENTS AND OIG EVALUATION

 A draft Report was provided to the agency for comment. In addition, we met with
PBGC officials to discuss the Report’s findings. We have reviewed PBGC’s comments to
this Report. PBGC’s response, which can be found at TAB A, generally agreed with the
Report’s findings.




                                            i
                              Review of Sensitive Payments
                                    Fiscal Year 1999
                              Audit Report 2000-14/23143

INTRODUCTION

       Pension Benefit Guaranty Corporation’s (PBGC) Senior Level officials are vested with
the public trust and hold positions with decision-making authority. In those positions, the
employees may face intense scrutiny of their actions. Sensitive payments encompass a
wide range of executive functions including compensation, travel, official entertainment
funds, unvouchered expenditures, consulting services, speaking honoraria and gifts, and
perquisites. Sensitive payment issues are addressed in various laws, regulations, policies
and procedures, and codes of ethics and conduct for government employees.

OBJECTIVES

       We conducted an audit of Fiscal Year (FY) 1999 sensitive payments to certain PBGC
Senior Level officials during the period October 1, 1998 through September 30, 1999. To
accomplish this audit, the following objectives were completed:

        1. Evaluate the effectiveness of the management control structure over the areas of
           sensitive payments that encompass the following items:
                   compensation,
                   travel,
                   official entertainment funds,
                   unvouchered expenditures,
                   contracting and consulting services,
                   speaking honoraria and gifts,
                   executive perquisites, and
                   code of ethics criteria.

        2. Evaluate compliance with applicable laws, regulations, policies and procedures,
           and the codes of ethics and conduct.

SCOPE

         Our scope was the universe of Senior Level officials at PBGC, including the
Executive Director, Deputy and Assistant Executive Directors, and other Senior Level
officials. Senior Level officials are defined as those who are in positions that have been
classified above the GS-15 level (Directive PM 20-6, § 3.a.). Our testing covered the areas
identified by the United States General Accounting Office (GAO) in its publication, Guide for
Evaluating and Testing Controls Over Sensitive Payments. Our testing did not encompass
the application controls in Travel Manager. For compliance criteria, we identified and
reviewed the following federal laws, regulations and Corporate policy and procedures:

           41 CFR Chapters 300-304, Federal Travel Regulation System
           5 CFR Part 2635, Standards of Ethical Conduct for Employees of the Executive
           Branch
           Directive FM 05-6, The PBGC Imprest Fund
           Directive FM 15-1, PBGC Systems for the Requisition of, Acquisition of and
           Payment for Goods and Services
           Directive GA 05-5, The PBGC Delegation of Authority System
           Directive GA 10-5, PBGC Travel Policies and Procedures
           Directive GA 10-6, PBGC Sponsored Meetings and Conferences
           Directive IM 10-4, Speaking Engagements and Public Meetings
           Directive PM 20-6, Senior Level Executive Program




                                            1
        This audit was performed in conformance with government auditing standards and
included such tests of compliance with applicable federal laws, regulations, and PBGC
directives, as we deemed necessary. We discussed our conclusions with PBGC officials.

        We judgmentally selected our sample of Senior Level officials based upon our review
of the organizational staffing pattern and the obligation balance report for the fiscal period
ending September 30, 1999.

BACKGROUND AND METHODOLOGY

         In May 1993, the GAO issued a Guide for Evaluating and Testing Controls Over
Sensitive Payments (Guide). The Guide describes procedures for review of the internal
control structure over sensitive payments, conflicts of interest, associated ethics matters,
and a determination as to whether those controls ensure compliance by senior government
officials with major laws, established regulations, and policies and procedures. The guide
suggests that this review be performed as part of the audit of the financial statements.
Audit testing was specifically tailored to the sensitive pay issues identified by GAO’s Guide.

Compensation

       We requested FY 1999 payroll data for the selected Senior Level officials. We
obtained the Earnings History Records from the payroll system and compared pay rates and
other compensation to that established by Corporate Directive PM 20-6.

Travel

       We obtained the travel vouchers for the selected Senior Level officials. We verified
the completeness of the travel vouchers provided our office by tracing paid vouchers to the
Financial Accounting Reporting System. We recalculated the voucher reimbursements to
ensure compliance with the Federal Travel Regulations and PBGC Directive GA 10-5. We
reviewed the vouchers to ensure proper approvals and appropriate supporting
documentation was included in the voucher package.

Contracting and Consulting Services

        We obtained the public financial disclosure forms (SF-278s) for the selected Senior
Level officials. We reviewed the financial disclosure forms to determine if any potential
conflicts of interest could arise from procurement activities with firms in which the Senior
Level officials have a financial interest.

Official Entertainment Funds and Unvouchered Expenditures

       These funds are established by law for specific purposes. Previous audits have
found these type funds are not established for PBGC.

Speaking Honoraria and Gifts

        We obtained the reports PBGC was required to file with the Office of Government
Ethics for FY 1999 that detail reimbursement of travel from sources outside the Federal
Government. We reviewed the information provided by these reports and traced all items to
appropriate supporting travel documentation.

Executive Perquisites

        We obtained the logs for official use of the government vehicle maintained by PBGC.
We reviewed the logs to ensure that use of the vehicle was in accordance with Government
regulations and PBGC policy.
Code of Ethics


                                             2
        We interviewed the Alternate Agency Ethics Official who explained PBGC’s policies
and procedures for informing its employees of their responsibilities regarding the code of
ethics. We reviewed the SF-278s of the selected Senior Level employees for conflicts of
interest.

       During the course of our audit, nothing came to our attention that indicated that we
should include other areas for audit testing or examination under the sensitive
payment criteria.

FINDING AND RECOMMENDATIONS

1. PBGC Directive GA 10-5 Conflicts With
   Federal Travel Regulations.

        Our audit found that, in many cases, the guidance in PBGC Directive GA 10-5 for
authorizing and reimbursing travelers for expenses was outdated. Directive GA 10-5’s
effective date is August 5, 1996. Between 1996 and 1998, however, the Federal Travel
Regulations (FTR) were amended several times to significantly change certain limitations on
reimbursement of travel expenses. In fact, PBGC acknowledged the conflict in a reference
guide, Spending PBGC Funds: Traps for the Unwary.1 That guide states: "GSA updated the
FTR in April 1998, so until PBGC updates its directive you may find conflicts between it and
PBGC's travel directive, GA 10-5. If you find a conflict, the new FTR prevails."

        We note that Directive GA 10-5 states that it is the controlling authority for PBGC
travelers. Section 1, states, in part, that:

       This directive establishes travel policy for PBGC staff, and consultants
       and experts appointed under 5 U.S.C. 3109. Travel expenses incurred
       which are not authorized by this directive will be disallowed.

There does not appear to be a “conflicts of laws” provision in GA 10-5, i.e., a provision
stating that to the extent there is a conflict between the directive and the FTR, the FTR will
control.

       An example of a conflict between GA 10-5 guidance and the FTR is demonstrated in
section 4.g., “Actual subsistence expenses.” The Directive states:

       In lieu of per diem, actual subsistence expenses may be allowed within the
       guidelines of the FTR (e.g., the maximum per diem is inadequate due to
       special or unusual circumstances). However, when actual subsistence
       expenses are authorized, the PBGC shall not reimburse an employee for
       expenses in excess of 150 percent of the applicable per diem rate. . . . Part
       30-8, "Reimbursement of Actual Subsistence Expenses," of the FTR sets
       forth examples of permissible use of actual subsistence expenses. . . .

        In 1997, the FTR was amended to allow agencies to authorize reimbursement of
actual travel expenses up to 300 percent of the applicable per diem rate. This amendment
was at the agency’s discretion and agency policy could establish a lesser amount (41 CFR
§ 301-11.303). The agency issued a memorandum on July 30, 1997 adopting the increased
300% authorization, however, Directive 10-5 was not changed to reflect the increase.



1 This reference guide covers a wide variety of common federal government expenditures and was
written to help PBGC employees properly spend PBGC funds. It was developed by the Office of
the General Counsel, in consultation with the Office of Inspector General, to satisfy an audit
recommendation in an OIG Report, Evaluation of PBGC Appropriation Expenditures for Food,
Entertainment and Mementos, No. 98-5/23115 (Sept. 30, 1998).


                                              3
Then in 1998, the FTR was completely amended to provide guidance in a question-answer
format and to change other travel requirements. Actual expense reimbursements are now
covered in 41 CFR § 301-11, Subpart D, however, the Directive does not reflect this
regulatory reference change.

         We note that Directive GA 10-5 was revised in January 1998 and March 1999,
though the revisions did not incorporate these amendments to the FTR. The July 1997
memorandum that adopted the 300% maximum per diem reimbursement is not readily
available to PBGC travelers. Rather, GA 10-5 is PBGC’s announced travel guidance. By
failing to amend section 4.g. of GA 10-5, there may be confusion and some travelers may
have been harmed. For example, an unwitting traveler may have had a legitimate lodging
expense in excess of 150% of per diem but may not have sought reimbursement because of
section 4.g.’s limitation.

       In our review of travel vouchers, we noted instances in which the employee was only
authorized actual subsistence of 150% yet the traveler’s expenses were greater than that
amount. For example, in some travel vouchers there were errors, including application of
the 150% per diem rate, but in no case did the traveler exceed the maximum 300%
reimbursement.

       Other examples of inconsistencies between the directive and the amended FTR
include:

           GA 10-5, 7.b. & c. guidance concerning allowance for meals and incidental
           expenses (M&IE) when travel is for less than 24 hours states that traveler
           reimbursement is pro-rated based on six-hour increments. In 1996, the FTR
           was amended and the six-hour formula was abandoned (currently at 41 CFR
           §§ 301.11-100 through 301.11-102).

           GA 10-5, 10.d. states that the travel voucher claiming reimbursement must be
           delivered to the Payroll/Travel Office by the tenth working day after the
           completion of the travel. The FTR was amended in 1998 to require travel claims
           to be submitted within five working days after completion of the trip (41 CFR
           § 301-52.7).

           GA 10-5, 10.d. states that when travel is authorized or approved on an actual
           subsistence expense basis, the employee must itemize on the travel voucher
           each expense for which reimbursement is claimed on a daily basis. Meals must
           be itemized separately; i.e., breakfast, lunch, and dinner. 41 CFR § 301-11.306
           also states that all expenses, including meals, must be itemized separately.
           However when an agency limits M&IE reimbursement to either the prescribed
           maximum M&IE rate for the locality concerned or a reduced M&IE rate, it may
           or may not require M&IE itemization at its discretion. For the reviewed vouchers
           with actual subsistence expense authorization, we found that PBGC reimbursed
           the traveler at the prescribed maximum M&IE rate. The traveler was not
           required to itemize actual expenses for meals.

           GA 10-5, 10.d. states that receipts must be submitted for all cash expenditures
           in excess of $25.00. In 1996, the FTR was amended to require receipts for all
           cash expenditures in excess of $75.00 (currently at 41 CFR § 301-11.306).

We note that, for the travel reviewed in this audit, PBGC’s actual practice regarding travel
reimbursement issues usually followed the amended travel regulations rather than its
directive.

        In addition, GA 10-5, 10.b. states that form PBGC 264 is to be used to authorize all
travel except local travel. We found that PBGC is instead using GSA Form 87. We further
found that Form 87 is in PBGC’s electronic Travel Manager and required by the Travel
Office. GSA Form 87, revised in August 1986, is out of date. Statements on the form, in


                                            4
particular those concerning the maximum actual expense reimbursement, do not reflect
PBGC's actual practices. In addition, the form does not provide sufficient detail concerning
estimated travel costs.

        The travel authorization should be sufficiently detailed to provide a clear audit trail
as to the funding required for the specific trip. Travelers requesting actual subsistence
expense should be able to determine the amount of funds required for one night’s lodging.
The traveler should then determine whether the required reimbursement for actual
subsistence is 300% or some lesser amount. Preparation of proper travel authorizations
with adequate detail leaves a clear audit trail and provides a control mechanism to evaluate
the expenses listed on the submitted travel voucher. We noted that there is a travel
authorization form available on PBGC's Travel Manager that provides a more detailed
schedule of estimated costs. This, or a similar form, should be used instead of GSA Form
87.

        This lack of consistency between PBGC Directive GA 10-5 and the Federal Travel
Regulations weakens management's control over the authorization and reimbursement of
travel expenses to PBGC employees and consultants. Though PBGC employees have access
to federal regulations through the Intranet, they may not know how to research their
questions. In addition, the employees are more likely to be familiar with PBGC’s directives
and to expect to rely on them. An agency’s internal guidance should bridge the gap
between technical regulations and exactly what employees must know to comply with the
rules. Because Directive GA 10-5 is out-dated, it can be confusing to the traveler, the
administrative support preparing the travel documents, and the one authorizing the travel.
Reliance on it could lead to the reimbursement of expenses to the traveler that exceeded or
fell short of allowable amounts.

                                   RECOMMENDATIONS

       We recommend that PBGC implement the following corrective actions:

       PBGC Directive GA 10-5 should be timely revised to reflect amendments to the Federal
       Travel Regulations and changes in management's current policies for authorization and
       reimbursement for travel by PBGC's employees and consultants. (FOD-282)

       Discontinue use of GSA Form 87 to document authorization of travel. Use a travel
       authorization form, such as the form available on Travel Manager, which provides a
       more detailed schedule of estimated costs. (FOD-283)




                                             5
